     DEPARTMENT OF HEALTH & HUMAN SERVICES                      Office of Inspector General

                                                                 Office of Audit Services, Region V
                                                                 233 North Michigan Avenue
                                                                 Suite 1360
                                                                 Chicago, IL 60601



April 30, 2010

Report Number: A-05-09-00073

Ms. Karen Timberlake
Secretary
Department of Health Services
1 West Wilson Street
Madison, WI 53703

Dear Ms. Timberlake:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the State of Wisconsin’s Medicaid Management
Information System Expenditures for the Period October 1, 2006, through September 30, 2008.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Sheri Fulcher, Audit Manager, at (312) 353-1823 or through email at
Sheri.Fulcher@oig.hhs.gov. Please refer to report number A-05-09-00073 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Karen Timberlake


Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL


       REVIEW OF THE
    STATE OF WISCONSIN’S
   MEDICAID MANAGEMENT
    INFORMATION SYSTEM
EXPENDITURES FOR THE PERIOD
 OCTOBER 1, 2006, THROUGH
     SEPTEMBER 30, 2008




                      Daniel R. Levinson
                       Inspector General

                          April 2010
                        A-05-09-00073
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

A Medicaid management information system (MMIS) is a system of computer software and
hardware used to process Medicaid claims and manage information about Medicaid beneficiaries
and services. Section 1903(a) of the Social Security Act authorizes Federal reimbursement for
the development of an MMIS at an enhanced rate of 90 percent. The Centers for Medicare &
Medicaid Services (CMS) State Medicaid Manual identifies MMIS development or operation
costs that are allowable for Federal reimbursement. For such costs to be allowable at the
enhanced rate of 90 percent, the costs must be directly related to the “design, development,
installation, and enhancement of a mechanized claims processing and information retrieval
system.”

Wisconsin’s Department of Health Services (the State agency) administers the State’s Medicaid
program under Federal regulations established and modified by CMS. The State agency
contracted with a fiscal agent, EDS Information Services, L.L.C., now HP Enterprise Services,
for the development of an MMIS. During the audit period October 1, 2006, through
September 30, 2008, the State agency claimed $39,530,876 ($35,577,788 Federal share) as
MMIS development costs for reimbursement under the Medicaid program.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for MMIS development costs
during the audit period were allowable, equitably allocated, and claimed at the correct Federal
reimbursement rate.

SUMMARY OF FINDINGS

Of the $39,530,876 ($35,577,788 Federal share) that the State agency claimed in MMIS
development costs during our audit period, $39,460,870 ($35,514,783 Federal share) was
generally allowable, equitably allocated, and claimed at the correct Federal reimbursement rate.
However, the State agency claimed $70,006 ($63,005 Federal share) in indirect costs that were
unallowable. Also, the State agency identified an additional $31,456 ($28,310 Federal share) of
unallowable indirect costs claimed outside the scope of our audit period.

These errors occurred because the State agency did not have sufficient controls to ensure that
only the allowable MMIS development costs were claimed at the enhanced reimbursement rate.




                                                i
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $91,315 to the Federal Government; and

   •   strengthen internal controls and procedures to ensure that MMIS costs claimed for
       Federal reimbursement are claimed at the correct reimbursement rate.


STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings and described
corrective actions that it has taken or plans to take to implement our recommendations. The State
agency’s comments are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program........................................................................................1
              Medicaid Management Information System................................................1
              Wisconsin Medicaid Management Information System ..............................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS………………………………… ................3

          UNALLOWABLE INDIRECT COSTS ..................................................................3

          RECOMMENDATIONS……………………………………………… .................4

STATE AGENCY COMMENTS .....................................................................................4

APPENDIX




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

States report Medicaid expenditures for medical assistance and administrative costs to CMS on
the “Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,” Form
CMS-64 (CMS-64 report). The standard Federal reimbursement rate for Medicaid
administrative expenditures is 50-percent.

Medicaid Management Information System

Section 1903(r)(1) of the Act states that in order to receive Federal funding for the use of
automated data systems in administration of the Medicaid program, the State must have a
mechanized claims processing and information retrieval system. The CMS State Medicaid
Manual, Chapter 11, Section 11100, states that, for Medicaid purposes, the mechanized system is
the Medicaid management information system (MMIS). An MMIS is a system of computer
software and hardware used to process Medicaid claims and manage information about Medicaid
beneficiaries and services. The system may be operated by either a State agency or a fiscal
agent, which is a private contractor hired by the State.

Section 1903(a) of the Act authorizes a 90 percent Federal reimbursement rate for design,
development, or installation of an MMIS. The Act also authorizes a 75 percent Federal
reimbursement rate for the operation of an MMIS.

The CMS State Medicaid Manual identifies MMIS development or operation costs that are
allowable for Federal reimbursement. For such costs to be allowable at the enhanced rate of 90
percent, the costs must be directly related to the “design, development, installation, and
enhancement of a mechanized claims processing and information retrieval system.” The State
Medicaid Manual identifies training and indirect costs as reimbursable at a rate of 50 percent.


Wisconsin Medicaid Management Information System

In Wisconsin, the Department of Health Services (the State agency) administers the Medicaid
program with Federal oversight from CMS. In January 2005, the State agency contracted with a
fiscal agent, EDS Information Services, L.L.C., now HP Enterprise Services (fiscal agent), for



                                               1
the development and operation of an MMIS. The initial term of the contract was 7 years and
consisted of two phases, implementation and operations. The implementation phase was a 2 year
term with the option to renew in 1 year increments followed by a 5 year operations phase. The
State agency extended the implementation phase, which will currently end when the final
payment is made to the fiscal agent after CMS grants full Federal certification of the MMIS.

Our review focused on the implementation phase, with initial development costs not to exceed
$21,500,000. CMS approved an additional $51,343,589 for the implementation phase, including
$11,266,256 for a contract with Deloitte Consulting for quality assurance and technical advisory
services. The resulting contract cost for the implementation phase was $72,843,589. During the
audit period October 1, 2006, through September 30, 2008, the State agency claimed
$39,530,876 ($35,577,788 Federal share) in MMIS development costs for the implementation
phase.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for MMIS development costs
during the audit period were allowable, equitably allocated, and claimed at the correct Federal
reimbursement rate.

Scope

We reviewed $39,530,876 ($35,577,788 Federal share) that the State agency claimed in MMIS
development costs during the audit period October 1, 2006, through September 30, 2008.

Our objective did not require an understanding or assessment of the overall internal control
structure of the State agency’s Medicaid program. Rather, we reviewed the State agency’s
procedures used to calculate and claim the Federal share of MMIS development expenditures.

We performed fieldwork at the State agency in Madison, Wisconsin, from May through
November 2009.

Methodology

To accomplish our objectives, we:

   •    reviewed applicable Federal laws and regulations and CMS guidance;

   •    reviewed the State agency’s policies and procedures for ensuring that MMIS
        development costs were allowable, equitably allocated, and claimed at the correct Federal
        reimbursement rate;

   •    reviewed the State agency’s contracts with the fiscal agent and Deloitte Consulting;




                                                2
    •   compared amounts claimed by the State agency on the CMS-64 reports for fiscal years
        2007 and 2008 with the supporting spreadsheets and invoices;

    •   reviewed judgmental samples totaling $35,360,876 ($31,819,210 Federal Share) and
        traced amounts to invoices, State payroll records, and other supporting documentation.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate, evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.


                              FINDINGS AND RECOMMENDATIONS

Of the $39,530,876 ($35,577,788 Federal share) that the State agency claimed in MMIS
development costs during our audit period, $39,460,870 ($35,514,783 Federal share) was
generally allowable, equitably allocated, and claimed at the correct Federal reimbursement rate.
However, the State agency claimed $70,006 ($63,005 Federal share) in indirect costs that were
unallowable. Also, the State agency identified an additional $31,456 ($28,310 Federal share) of
unallowable indirect costs claimed outside the scope of our audit period.

UNALLOWABLE INDIRECT COSTS

Section 11276.11 of the CMS State Medicaid Manual establishes the rate of funding for indirect
costs at 50 percent. Section 11276.9 states that “Only direct costs allocable to the development
or operation of an MMIS are eligible for reimbursement at enhanced FFP 1 rates.” It
continues, “Costs which cannot be specifically identified with the development or operation of
an MMIS are matched at the 50 percent FFP rate. Such costs are usually indirect costs….”

During our audit period, the State agency incorrectly claimed indirect MMIS development costs
at the 90 percent Federal reimbursement rate instead of the 50 percent rate, resulting in an
overcharge of $70,006 ($63,005 Federal share). The State agency identified an additional
$31,456 ($28,310 Federal share) of unallowable indirect costs outside our audit period, resulting
in a total overcharge of $101,462 ($91,315 Federal share).

These errors occurred because the State agency did not have sufficient controls to ensure that
only the allowable MMIS development costs were claimed at the enhanced reimbursement rate.




1
 Federal financial participation (FFP) is the Federal government’s share of expenditures by a State agency. Section
1903(a) of the Social Security Act directs payment of FFP, at different matching rates, for amounts "found necessary
by the Secretary for the proper and efficient administration of the State plan."


                                                         3
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $91,315 to the Federal Government, and

   •   strengthen internal controls and procedures to ensure that MMIS costs claimed for
       Federal reimbursement are claimed at the correct reimbursement rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings and described
corrective actions that it has taken or plans to take to implement our recommendations. The State
agency’s comments are included in their entirety as the Appendix.




                                               4
APPENDIX
                                  APPENDIX: STATE AGENCY COMMENTS

                    State of Wisconsin 

                    Department of Health Services 

                   Jim Doyle, Governor 

                   Karen E. Timberlake, Secretary 



           March 23, 2010


           Stephen Stamar
           Acting Regional Inspector General for Audit Services
           DHHS Office of Audit Services, Region V
           233 North Michigan Avenue
           Suite 1360
           Chicago, IL 60601

           Dear Mr. Slamar:

           This is in response to your February 25, 2010 request for comment on the U.S.
           Department of Health and Human Services, Office oflnspector General (OIG) draft
           report entitled "Review ofthe State of Wisconsin's Medicaid Management Information
           System Expenditures for the Period October 1, 2006, through September 30, 2008,"
           report number A-05-09-00073. The Wisconsin Department of Health Services provides
           the response below to the following pages of the draft report and recommendations:

           Page 1: Background on the Wisconsin Medicaid Management Information System:

           DHS Response: The initial term of the Medicaid Management Information System
           (MMIS) and Fiscal Agent Services contract between DHS and EDS Information Services
           LLC, now HP Enterprise Services, for the development and operation of the MMIS is
           incorrectly stated in the draft report.

           The contract term includes two phases. An implementation phase followed by a 60­
           month operations phase. Also, the contract does not end when fmal payment is made to
           the fiscal agent after the State agency receives written approval from CMS granting full
           Federal certification of the MMIS. The operations phase of the contract continues
           following Federal certification.

           Page 3: Recommendation: We recommend that the State agency refund $91,315 to the
           Federal Government, and strengthen internal controls and procedures to ensure that
           MMIS costs claimed for the Federal reimbursement are claimed at the correct
           reimbursement rate.

           DHS Response: DHS agrees with this recommendation. DHS refunded the $91,315
           through an adjustment on the CMS-64 report for the Quarter ending September 30, 2009.
           DBS has strengthened internal controls and procedures to ensure that indirect costs are
           not claimed at the 9()O/o FFP rate.




1 West Wilson Street . Post Office Box 7850 . Madison, WI 53707-7850 • Telephone 608-266-9622 • dhs.wisconsin.gov
                        Protecting andpromoting the health and safety ofthe people of Wisconsin
    Stephen Slamar
    March 23,2010
    Page 2

    Page 4: Other Matters: The State agency incorrectly claimed MMIS costs related to
    training at the 90% reimbursement rate. The OIG and State agency could not quantify
    the amount ofMMIS training costs because they were not separately identified. The
    State agency did not track and monitor MMIS-related training costs internally or at its
                                          1
    fiscal agent and Deloitte Consulting.

    DHS Response: DRS' time and activity reporting system for State staffhas a unique
    code for State staffto use to track and report time spent on MMIS training. Any time
    reported under this code would result in claiming costs for State stafftime accurately at
    the 50% FFP rate. DHS will take action to assure future MMIS related training costs are
    separately tracked and reported by State contractors. 1

    If you have any questions on this response, please contact Kenneth Thyberg at (608) 261­
    6315.

    Sincerely,



    Karen E. Timberlake
    Secretary




IOffice of Inspector General Note-These auditee comments refer to matters included in our
draft report but excluded from this final report.
